Report No. D-2009-087            June 15, 2009




     Controls Over Contract Obligation Data
     in the Logistics Modernization Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Office of the Deputy Inspector General at http://www.dodig.mil/audit/reports or contact
the Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Audits
To suggest ideas or request audits, contact the Office of the Deputy Inspector General for
Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932, or by mail.

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC                           Army Materiel Command
AWCF                          Army Working Capital Fund
CECOM                         Communications-Electronics Life Cycle Management
                               Command
DFAS                          Defense Finance and Accounting Service
FMR                           Financial Management Regulation
LMP                           Logistics Modernization Program
MOD                           Miscellaneous Obligation Document
PADDS                         Procurement Automated Data and Document System
PEO EIS                       Army Program Executive Office, Enterprise
                               Information Systems
TACOM                         TACOM Life Cycle Management Command
UCA                           Undefinitized Contract Action
U.S.C.                        United States Code
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DR IVE
                                 ARLINGTON, VIRG INIA 22202-4704


                                                                                      June 15, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER);
                 DOD CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Controls Over Contract Obligation Data in the Logistics Modernization Program
         (Report No. 0-2009-087)


We are providing this report for review and comment. We considered management comments on
a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Comments the
Under Secretary of Defense (Comptroller)lDoD Chief Financial Officer; Commander, U.S. Army
Materiel Command; and the Commander, Communications-Electronics Life Cycle Management
Command were responsive. However, the comments from the Army Program Executive Officer,
Enterprise Infonnation Systems were only partially responsive. We request additional comments
on Recommendation B.2, by July 15,2009,

Please provide comments that confonn to the requirements of DoD Directive 7650.3. If possible,
send your comments in electronic format (Adobe Acrobat file only) to auddbo@dodig.mi l.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the; Signed; symbol in place of the actual signature. jf
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868 (DSN 329-5868).




                                             e~C0A
                                                r
                                                   /!J~
                                             Assistant nspector General
                                             Defense Business Operations
Report No. D-2009-087 (Project No. D2007-D000FI-0186.000)                                June 15, 2009

               Results in Brief: Controls Over Contract
               Obligation Data in the Logistics
               Modernization Program

What We Did                                             What We Recommend
We evaluated the effectiveness of controls over         We recommend that the Under Secretary of
the recording and reporting of contract                 Defense (Comptroller)/DoD Chief Financial
obligations in the Logistics Modernization              Officer revise the guidance for obligating
Program (LMP) system. We compared contract              undefinitized contract actions. We recommend
line obligations recorded in the Procurement            that the Commander, U.S. Army Materiel
Automated Data and Document System to the               Command require that the Life Cycle
corresponding purchase order obligations                Management Commands implement standard
recorded in LMP. We researched LMP and                  operating procedures for processing and
Procurement Automated Data and Document                 controlling LMP commitment and contract
System records to identify causes for differences       obligation data. We recommend that the Army
in recorded contract obligations. In addition, we       Program Executive Officer, Enterprise
reviewed miscellaneous obligation documents             Information Systems formalize a plan to change
recorded as of September 30, 2007, for                  LMP system functionality to correctly process
compliance with established laws and the DoD            contract and accounting data when there are
Financial Management Regulation.                        differences between units of measurement on
                                                        the purchase requisition and the purchase order.
What We Found                                           We recommend that the Commander, CECOM
The accuracy of obligations recorded for                develop standard operating procedures that fully
purchase orders has significantly improved              document processes and controls.
since the Army Program Executive Office,
Enterprise Information Systems implemented              Management Comments and
system process changes in May 2005, and the             Our Response
Communications-Electronics Life Cycle                   The Under Secretary of Defense
Management Command (CECOM) established                  (Comptroller)/DoD Chief Financial Officer; the
better internal control procedures. However,            Commander, U.S. Army Materiel Command;
CECOM had not fully documented its processes            and the Commander, CECOM agreed with the
and controls, and its internal controls over            recommendations. The Army Program
miscellaneous obligation documents were not             Executive Officer, Enterprise Information
adequate. We identified a material internal             Systems agreed with Recommendation B.2.;
control weakness. CECOM failed to comply                however, the comments were only partially
with established laws and regulations when              responsive. See the full text of the comments in
obligating funds at fiscal year-end. As a result,       the Management Comments section of the
CECOM overstated the obligation balance on              report. We request additional comments from
the FY 2007 Army Working Capital Fund                   the Army Program Executive Officer. Please
Statement of Budgetary Resources by at least            see the recommendations table on the back of
$24.4 million.                                          this page.



                                                    i
Report No. D-2009-087 (Project No. D2007-D000FI-0186.000)     June 15, 2009


      Management                 Recommendations      No Additional Comments
                                Requiring Comment            Required
Under Secretary of Defense                            B.1.
(Comptroller)/DoD Chief
Financial Officer
Commander, U.S. Army                                  A.1.
Materiel Command
Army Program Executive       B.2.
Officer, Enterprise
Information Systems
Commander,                                            A.2. and B.3.
Communications-
Electronics Life Cycle
Management Command

Please provide comments by July 15, 2009.




                                            ii
Table of Contents

Results in Brief                                                                   i

Introduction                                                                       1

       Objective                                                                   1
       Background                                                                  1
       Review of Internal Controls                                                 2

Finding A. Recorded Obligations                                                    3

       Recommendations, Management Comments, and Our Response                      7

Finding B. Miscellaneous Obligation Documents                                      9

       Recommendations, Management Comments, and Our Response                     14

Appendices

       A. Scope and Methodology                                                   18
             Prior Coverage                                                       19
       B. Glossary                                                                21

Management Comments

       Under Secretary of the Defense (Comptroller)/DoD Chief Financial Officer   22
       Army Materiel Command                                                      24
       Communications-Electronics Life Cycle Management Command                   26
       Program Executive Officer, Enterprise Information Systems                  30
Introduction
Objective
Our audit objective was to evaluate the effectiveness of controls over the recording and
reporting of contract obligations in the Logistics Modernization Program (LMP) system.
See Appendix A for a discussion of the scope and methodology and prior audit coverage
related to the objective. See Appendix B for a glossary of common terms used in the
report.

Background
LMP represents the Army’s business system modernization effort to provide an
integrated logistics and accounting system to manage the Industrial Operations, Army
and the Supply Management, Army activity groups of the Army Working Capital Fund
(AWCF). LMP integrates the business processes of sales forecasting, order entry,
manufacturing, distribution, materiel management, inventory, and financial information
management. The Army Program Executive Office, Enterprise Information Systems
(PEO EIS) has program management responsibility for LMP.

Implementation of LMP began in July 2003 at Headquarters, U.S. Army Materiel
Command (AMC); the Communications-Electronics Life Cycle Management Command
(CECOM); Tobyhanna Army Depot; and the Defense Finance and Accounting Service
(DFAS) field sites at Rock Island, Illinois, and St. Louis, Missouri. 1 AMC and the
PEO EIS plan to begin the second deployment in March 2009 at the Aviation and Missile
Life Cycle Management Command, the Corpus Christi Army Depot, and the Letterkenny
Army Depot. AMC and the PEO EIS are planning the third deployment for January 2010
at the TACOM Life Cycle Management Command, the Anniston Army Depot, the Red
River Army Depot, the Rock Island Arsenal, the Sierra Army Depot, and the Watervliet
Arsenal. 2

A SeeBeyond interface passes data between LMP and other DoD automated systems. 3
At CECOM, the Logistics Readiness Center used LMP to generate purchase requisitions
for AWCF materiel and for repair and maintenance of reparable inventory assets. The
funded purchase requisition creates a commitment document that is recorded in the LMP
Financial Accounting Module, which has a General Ledger component and a Funds
Management component. The General Ledger component contains the U.S. Standard
General Ledger accounts. The Funds Management component is used to manage the
budget funding authority and shows funds committed for each purchase requisition and



1
  The DFAS St. Louis field site relocated to DFAS Columbus, Ohio, in July 2007.
2
  The TACOM Life Cycle Management Command was formerly known as Tank and Automotive
Command. It is now simply referred to as TACOM.
3
  SeeBeyond Technology Corporation, now part of Sun Microsystems, Inc., develops business integration
application software.


                                                  1
funds obligated for the related purchase order. 4 The purchase requisitions process
through the SeeBeyond interface to the CECOM Contracting Center, 5 which uses the
Procurement Automated Data and Document System (PADDS) to prepare the contracts
for purchases of materiel and maintenance and repair services. PADDS returns the
contract data back through the SeeBeyond interface to LMP, which updates the
commitment and obligation data recorded in the LMP Financial Accounting Module.

After the initial fielding of LMP in July 2003, CECOM reported significant problems with
the accuracy of obligations recorded in LMP. In its review of obligations recorded in LMP
for FYs 2003 through 2005, the U.S. Army Audit Agency reported that as of September 30,
2003, CECOM had reported a $221.7 million difference between the obligations recorded
in LMP and the manual records kept by operating personnel. 6 In addition, CECOM
reported in October 2003 that more than 20 percent of contract line items were rejected
during the SeeBeyond interface process between PADDS and LMP. By September 30,
2005, CECOM reported that the contract line reject rate had significantly decreased to
about 8 percent. As a result of the improvements in LMP financial reporting processes,
CECOM gave an unqualified certification to the FY 2005 financial reports generated by
LMP. CECOM attributed the decrease in rejected contract lines to improved LMP
functionality, more management reports, and better training of operating personnel.

The Combined Statement of Budgetary Resources, part of the AWCF principal financial
statements, identifies the sources of budget resources and the obligations incurred during
the reporting period. For FY 2007, the Army reported that the obligations incurred by the
AWCF Industrial Operations and Supply Management, Army activity groups totaled
$16.8 billion.

Review of Internal Controls
We identified a material internal control weakness for CECOM as defined by DoD
Instruction 5010.40, “Managers’ Internal Control Program (MIC) Procedures,” January 4,
2006. CECOM had not implemented procedures for preparing year-end miscellaneous
obligation documents that complied with established laws and regulations. As a result,
CECOM overstated the year-end obligation balance reported on the FY 2007 AWCF
Statement of Budgetary Resources by at least $24.4 million. 7 Implementing
Recommendations A.1. and B.3. will improve internal controls. We provided a copy of
this report to the senior CECOM official responsible for internal controls.


4
  In LMP, “purchase order” is synonymous with “contract award.” A contract can consist of multiple
contract line item numbers that identify the items of supply or services included in the contract. The
corresponding purchase order number in LMP will show the same data for each contract line item number.
5
  Effective October 1, 2008, the CECOM Contracting Center, formally known as the CECOM Acquisition
Center, was organizationally realigned from CECOM to the Army Contracting Command.
6
  U.S. Army Audit Agency Report No. A-2007-0163-FFM, “FY 03 - FY 05 Obligations Recorded in the
Logistics Modernization Program,” July 27, 2007.
7
  Office of the Assistant Secretary of the Army (Financial Management and Comptroller) memorandum,
“Management Representations for the Fiscal Year (FY) 2008 Department of the Army’s Working Capital
Fund Principal Financial Statements Taken as a Whole,” November 8, 2008, states that an omission or
misstatement involving $10.6 million or more is material.


                                                  2
Finding A. Recorded Obligations
Since the PEO EIS implemented system process changes and CECOM established better
internal control procedures, the accuracy of obligations recorded for purchase orders in
LMP has significantly improved. CECOM reported that the percentage of contract lines
rejected during the PADDS-to-LMP interface decreased from 16.9 percent in May 2005
to 3.7 percent in May 2007. In addition, our comparison of contract line obligations
recorded in PADDS to the purchase order contract line obligations recorded in LMP
showed that almost all obligations accurately posted in LMP. Although CECOM has
implemented improved processes and internal controls, it has not fully documented the
processes and controls. As a result, AMC lacks assurance that these processes and
controls will be applied uniformly and consistently in the event of personnel changes or
during future LMP deployments. CECOM should fully document its controls and
procedures and AMC should require the other Life Cycle Management Commands to
implement these controls and procedures upon future deployments of LMP.

Improvement Initiatives
As a result of problems encountered in recording and reporting commitment and
obligation data during the initial fielding of LMP, the PEO EIS and CECOM took actions
to improve LMP system processes and internal controls. In May 2005, the PEO EIS
rewrote the PADDS-to-LMP interface process, increasing the frequency of PADDS file
transfers from two or three per month to three per day. The PEO EIS also developed
additional reports to track and monitor the transfer of purchase requisition and contract
data between systems. In addition, CECOM implemented internal control procedures to
ensure the accuracy and completeness of contract data passed to and from LMP and
PADDS and the prompt correction of erroneous data. These control procedures included
the following.

      The Logistics Readiness Center monitored the purchase requisition commitments
       and purchase order obligations recorded in the General Ledger and Funds
       Management components of the LMP Financial Accounting Module and
       reconciled them daily.

      The Contracting Center used LMP and PADDS reports to verify that all
       LMP-generated purchase requisitions passed to PADDS and that the
       PADDS-generated contract line data passed to LMP.

      The Resource Management Directorate used a PADDS-generated text file of
       contract lines to verify that the data posted accurately in LMP or that rejected
       transactions went to the Suspended Contract Listing. In addition, the Contracting
       Center used the Suspended Contract Listing to monitor and report the status of
       contract lines rejected during the PADDS-to-LMP interface.




                                            3
These combined actions resulted in a significant decrease in the percentage of contract
lines rejected during the PADDS-to-LMP interface. The percentage of contract lines
rejected decreased from 16.9 percent in May 2005 to 3.7 percent in May 2007, as shown
in the following graph.

  PADDS-to-LMP Transaction Reject Rates From May 2005 Through May 2007




   18%
   16%
   14%
   12%
   10%
    8%
    6%
    4%
    2%
    0%
                                                         January-06




                                                                                                                                 January-07
                                                                                                                   November-06




                                                                                                                                                 March-07
                            September-05



                                           November-05




                                                                      March-06




                                                                                                    September-06
                  July-05




                                                                                          July-06




                                                                                                                                                            May-07
         May-05




                                                                                 May-06




Results of Contract Obligations Match
The accuracy of obligations recorded for purchase orders in LMP has significantly
improved since May 2005. We compared the contract line obligations recorded in
PADDS to the corresponding purchase order obligations recorded in LMP. We matched
obligations by comparing the contract line item number and dollar amount recorded in
PADDS to the purchase order line item number and the dollar amount recorded in the
LMP Financial Accounting Module. The PADDS file included 8,705 contract
obligations recorded from May 1, 2005, through June 30, 2007, and the LMP file
included 8,261 obligations recorded from May 1, 2005, through August 17, 2007. We
reviewed contract obligation data beginning with May 1, 2005, because that is when the
PEO EIS rewrote the PADDS-to-LMP interface process and increased the frequency of
PADDS file transfers. We reviewed 118 of 444 mismatches and concluded that almost
all the obligations posted accurately in LMP. We brought the exceptions we identified to
the attention of CECOM personnel. The following table shows the data match results.

                    PADDS/LMP Obligation Data Match Review
 Matches                                  Net Dollar Value                                                                                    Contract Lines
 Contract Obligations in PADDS               $3,692,331,867                                                                                            8,705
 Contract Obligations in LMP                  3,622,106,529                                                                                            8,261
    Difference                               $ 70,225,338                                                                                                444
 Mismatches Identified:
 No Matching Contract Line in LMP               $45,925,991                                                                                                          404
 Different Obligation Amount in LMP              24,299,347                                                                                                           40
   Total Mismatches                             $70,225,338                                                                                                          444


                                                                                 4
We judgmentally sampled 78 of the 404 instances where the contract line item number in
PADDS did not have a purchase order line item number in LMP. With the assistance of
CECOM personnel, we researched PADDS and LMP records to determine causes for the
missing contract line items in LMP.

       The data match review flagged 69 of the 78 mismatches because the PADDS data
        file included all open contract line items, but the LMP data file included only
        active purchase order line items that cited CECOM funds. 8

       Five mismatches resulted from delays in correcting contract line items that
        rejected to the Suspended Contract Listing when the data passed from PADDS to
        LMP. CECOM personnel researched and correctly posted these five contract line
        items to LMP after August 17, 2007, the cutoff date of the LMP data file.

       Only 4 of the 78 contract lines did not have a matching purchase order line item
        recorded in LMP. We informed CECOM personnel of the four mismatches, and
        they researched and posted the purchase order line items in LMP. CECOM
        personnel did not give a specific reason for the purchase order line items not
        posting correctly in LMP.

We also reviewed 40 mismatches for which the contract line item number had different
obligation amounts recorded in PADDS and LMP.

       Fifteen mismatches resulted when the contract line item from PADDS was split
        and recorded in LMP as two separate line items on the same purchase order.
        During the initial fielding of LMP in July 2003, these 15 contract line items were
        recorded as part active and part inactive on the purchase order. The obligation
        amounts recorded for the active and inactive line items in LMP agreed with the
        total contract line item value in PADDS.

       Three mismatches resulted from delays in correcting contract amendments that
        had rejected to the Suspended Contract Listing during the PADDS-to-LMP
        interface. CECOM personnel researched and correctly posted these three contract
        line item amendments to LMP after August 17, 2007, the cutoff date of the LMP
        data file.

       Another 13 mismatches were the result of contract amendments processed for
        undefinitized contract actions (UCAs). (See finding B for more details on UCAs.)
        These contract amendments processed before the PEO EIS improved LMP




8
  LMP retains a record of both active and inactive purchase orders recorded since CECOM fielded the
system in July 2003. LMP codes the purchase order as inactive once the purchase order, goods receipt, and
invoice receipt amounts match.


                                                   5
       functionality for processing UCAs and amendments in June 2006. We provided
       information on the 13 contract lines to CECOM personnel, and they corrected the
       purchase order line items in LMP.

      The remaining nine mismatches were primarily the result of contract amendments
       from PADDS failing to post in LMP, or CECOM personnel making manual
       adjustments to the dollar amount or purchase quantity of the purchase order line
       item in LMP. CECOM personnel could not provide an explanation for the
       contract amendments not posting in LMP or the manual adjustments. We
       provided the information on these purchase order line items to CECOM and
       DFAS Columbus personnel, who then researched and corrected the LMP financial
       data.

In addition, we did a reverse data match of obligations by comparing the purchase order
line item number and the dollar amount recorded in LMP to the contract line item number
and the dollar amount recorded in PADDS. The data comparison identified 37
mismatches for which the purchase order number in LMP did not match a contract line
item number in PADDS. The Contracting Center entered 29 contract lines into PADDS
after June 30, 2007, the cutoff date for the PADDS data file. The other eight mismatches
involved cancellations of contract line items that were recorded in LMP as of August 17,
2007. These eight contract lines rejected to the Suspended Contract Listing during the
PADDS-to-LMP interface, but CECOM personnel did not correct them until after
August 17, 2007. The data match also identified the same 40 differences discussed in the
preceding paragraph.

LMP Deployment
In preparation for fielding LMP at the Aviation and Missile Life Cycle Management
Command in March 2009, AMC and the PEO EIS have developed detailed plans for
migrating data from a legacy system, the Commodity Command Standard System, to
LMP. The data migration plans include validating the accuracy of PADDS contract data
in the legacy system and performing three tests to validate that the data accurately loaded
into LMP. Effective implementation of the data migration plans should ensure that the
contract data in PADDS and LMP accurately correspond, when fielding LMP at the
Aviation and Missile Life Cycle Management Command.

However, as demonstrated at CECOM, effective controls and procedures are required to
ensure the accuracy and completeness of the purchase requisition and the contract line
item data passing between the two systems. CECOM had procedures and controls in
place to monitor and verify the completeness and accuracy of the data. However,
CECOM had neither fully documented the procedures and controls for monitoring,
verifying, correcting, and reporting on contract data passing between the two systems,
nor assigned responsibility to ensure that they were implemented and uniformly followed
in the event of personnel changes. Rather, CECOM focused its resources on processing
daily transactions and working with the PEO EIS to improve LMP processes and reports.
CECOM should develop standard operating procedures to fully document its processes
and controls over LMP and PADDS contract data, and AMC should require that the


                                             6
Aviation and Missile Life Cycle Management Command and the TACOM implement
similar standard operating procedures upon fielding of LMP. These controls and
procedures include but are not limited to:

      daily monitoring and reconciliation of the purchase requisitions and purchase
       orders recorded in the General Ledger and the Funds Management components of
       the LMP Financial Accounting Module,

      verifying that all LMP-generated purchase requisitions pass to PADDS,

      ensuring that the contract line item data in PADDS post accurately to LMP or
       rejects to the Suspended Contract Listing, and

      requiring monthly reports on the number and status of contract lines rejected
       during the PADDS-to-LMP interface.

Conclusion
The PEO EIS and CECOM have significantly increased the accuracy of contract
obligation data recorded in LMP by improving system processes and internal control
procedures. However, CECOM has not fully documented its processes and controls for
monitoring, correcting, and reporting on the purchase requisition and contract data passed
to and from LMP and PADDS. As a result, AMC lacks assurance that these processes
and controls will be applied uniformly and consistently in the event of personnel changes
or during future LMP deployments. CECOM should fully document its processes and
controls over commitment and obligation data passed to and from LMP and PADDS. In
addition, AMC should require that the Aviation and Missile Life Cycle Management
Command and TACOM Life Cycle Management Command implement similar processes
and controls when they deploy LMP.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Commander, U.S. Army Materiel Command, require
that the Aviation and Missile Life Cycle Management Command and the TACOM
Life Cycle Management Command implement standard operating procedures for
processing and controlling commitment and contract obligation data based on the
procedures developed by the Communications-Electronics Life Cycle Management
Command when it deploys Logistics Modernization Program.


Army Materiel Command Comments
The Commander, AMC agreed and stated that AMC is working with the CECOM Life
Cycle Management Command to finalize the standard operating procedures by April 30,
2009. AMC will incorporate the final standard operating procedures into the LMP
deployment implementation plan.



                                            7
Our Response
The Commander, AMC comments are responsive. No further comments are required.

A.2. We recommend that the Commander, Communications-Electronics Life Cycle
Management Command develop standard operating procedures that fully document
existing processes and controls over commitment and contract obligation data
passed to and from the Logistics Modernization Program and the Procurement
Automated Data and Document System.


Communications-Electronics Life Cycle Management Command
Comments
The Commander, CECOM agreed and stated that it will develop standard operating
procedures to document existing control procedures for commitments and obligations by
April 30, 2009.


Our Response
The Commander, CECOM comments are responsive. No further comments are required.




                                          8
Finding B. Miscellaneous Obligation
Documents
CECOM did not comply with established laws and the DoD Financial Management
Regulation (FMR), volume 3, when obligating AWCF funds at fiscal year-end using
miscellaneous obligation documents (MODs). Of the $27.6 million obligated on two
MODs at FY 2007 year-end, at least $16.7 million was an invalid or a duplicate
obligation. In addition, CECOM processed a $7.7 million invalid obligation transaction.
As a result, CECOM overstated the year-end obligation balance reported on the FY 2007
AWCF Statement of Budgetary Resources by at least $24.4 million. The Under
Secretary of Defense (Comptroller)/DoD Chief Financial Officer should revise the DoD
FMR, volume 3, and require DoD Components to commit and obligate the fiscal year
budget funding authority in effect at the time the UCA is definitized. The PEO EIS
should formalize a plan to change LMP system functionality to correctly process contract
and accounting data when there is a different unit of measurement used on the purchase
requisition than is used on the purchase order. In addition, CECOM should develop
standard procedures for verifying, documenting, and approving year-end MODs.

Obligation Process
CECOM received funding authority totaling $1.9 billion to operate the AWCF Supply
Management, Army activity group for FY 2007. The funding authority sets the limit on
the total obligations CECOM can incur for the fiscal year.

Section 1501, title 31, United States Code (31 U.S.C. 1501) states that an amount should
be recorded as an obligation when supported by documentary evidence of a binding
agreement between an agency and another party. The obligation must be made during
the period of the appropriation’s availability and must be used to acquire specific goods
or services. DoD FMR, volume 3, chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” sets forth the basis for determining the amount and the
accounting period in which commitments and obligations should be recorded under
various circumstances. DoD Components are responsible for recording commitments to
meet only bona fide needs of the period for which funds are appropriated. The amount
recorded as a commitment is the estimated cost of goods and services being acquired. A
commitment document ensures that funds are available prior to incurring an obligation.
DoD Components are responsible for recording obligations only when supported by
documentary evidence of the orders placed, contracts awarded, or services received.
When the obligation amount is not known at the time it should be recorded, the DoD
Component should make a best estimate, based on a thorough analysis of available
transaction data. DFAS Indianapolis Regulation 37-1, “Finance and Accounting Policy
Implementation,” requires the fund holder to use DD Form 2406, “Miscellaneous
Obligation Document,” to document and support an estimated obligation.




                                            9
UCAs allow the contractor to begin performance before agreeing to the final contract
terms, specifications, or price. UCAs are used only to meet urgent requirements and only
after confirmation that no other contracting method will fulfill the urgent need. Section
2326, title 10, United States Code (10 U.S.C. 2326), “Undefinitized Contractual Actions:
Restrictions,” restricts the use of UCAs to an urgent requirement of a DoD Component
and establishes limitations on the obligation of funds, the definition of terms, and
allowable profit for UCAs. Contracting officers for UCAs may not obligate the DoD
Component to an amount that is equal to more than 50 percent of the negotiated overall
ceiling price until the contract terms, specifications, and price are finalized. Contracting
officers are generally required to finalize the terms and conditions of UCAs within 180
days of initiation, before more than 50 percent of the estimated contract price is obligated
or before more than 40 percent of the work is completed, whichever occurs first.

Fiscal Year-End Obligations
CECOM personnel recorded invalid or duplicate obligations totaling at least
$24.4 million at FY 2007 year-end. In late September 2007, CECOM, with assistance
from the LMP contractor, queried the Funds Management component of the LMP
Financial Accounting Module to find the purchase orders in LMP that had an
undefinitized contract amount and to find any purchase requisitions with an outstanding
commitment amount. 9 The data query identified 15 purchase orders with undefinitized
amounts totaling $13.8 million and 214 purchase requisitions with outstanding
commitment amounts totaling $13.8 million. On September 30, 2007, CECOM
processed transactions to decrease the funds committed for each of the 214 purchase
requisitions. At the same time, CECOM recorded two MODs to obligate the total
$27.6 million using FY 2007 AWCF funding authority. CECOM personnel stated that
personnel within the AMC Office of the Deputy Chief of Staff for Resource Management
(G-8) instructed them, as part of the fiscal year-end closeout process, to obligate funds for
the undefinitized part of the UCAs and for the purchase requisitions with an outstanding
commitment amount. On October 1, 2007, CECOM recorded a commitment for each of
the 214 purchase requisitions using FY 2008 funding authority. On October 22, 2007,
CECOM reversed the two MODs. 10

We selected a judgmental sample of 4 of the 15 UCAs, valued at $13.2 million and 10 of
the 214 purchase requisitions valued at $3.6 million, to determine whether a valid
obligation existed as of September 30, 2007. We concluded that valid obligations did not




9
 UCAs contain a not-to-exceed price and firm obligation amount. The not-to-exceed price is the
negotiated overall contract ceiling price. CECOM contracting officers set the obligation amount at
49 percent of the not-to-exceed price. The difference between the not-to-exceed price and the obligation
amount is the undefinitized part of the purchase order. LMP was not designed to retain an outstanding
commitment amount for the undefinitized part of the UCA.
10
   Reversing the MOD generated a debit to the Downward Adjustment to the Prior-year Obligations
account (general ledger account code 4871) and a credit to the Allotments Realized account (general ledger
account code 4610). The effect of reversing the MOD was a transfer of funding authority from FY 2007 to
FY 2008.


                                                   10
exist as of September 30, 2007, for the 4 UCAs and the 10 purchase requisitions. In
addition, CECOM recorded a $7.7 million invalid obligation transaction for an additional
UCA.

Undefinitized Purchase Orders
CECOM did not comply with 10 U.S.C. 2326 when it recorded obligations in the
accounting records at fiscal year-end for the undefinitized part of the four UCAs totaling
$13.2 million. According to 10 U.S.C. 2326, contracting officers using UCAs may not
obligate an amount that is equal to more than 50 percent of the negotiated overall ceiling
price until they definitize the contract terms, specifications, and price for the contractual
action. CECOM contracting officers complied with this requirement and obligated, as
part of the contract, only 49 percent of the contract ceiling price. The following is an
example of contract terms included in a letter contract for one of the UCAs issued by
CECOM: “A not-to-exceed price of $5,686,527.00 has been set for this contract, subject
to downward negotiation only. CECOM funded this procurement at 49 percent of the
not-to-exceed price until definitization takes place.”

The contract administration data for this UCA, dated July 2, 2007, showed funds
obligated of $2,786,398.23, or 49 percent of the not-to-exceed price. CECOM recorded
an obligation for the same amount in LMP. On September 30, 2007, CECOM personnel
recorded an additional obligation of $2,913,601.20 for the undefinitized part of the
UCA. 11 In using the MOD to obligate an additional amount for the undefinitized part of
the UCA, CECOM followed their normal business practice and DoD FMR, volume 3,
chapter 8, paragraph 080507C guidance. However, paragraph 080507C does not comply
with 10 U.S.C. 2326 and conflicts with guidance in paragraphs 080507A and B regarding
the obligation amount to record in the financial records. Paragraph 080507 states:

        A. When the offer and acceptance are sufficiently specific and definitive to
        show the purpose and scope of the final contract to be executed, a letter contract
        or a letter of intent and any amendments to them accepted in writing by the
        contractor are documentary evidence to support the recording of an obligation.
        The obligation shall be recorded in the amount stated as the maximum liability
        under the letter or amendment.

        B. The maximum liability may be a limitation on the amount of obligations that
        may be incurred pending execution of a definitive contract. In this case, the
        estimated amount of the definitive contract, over and above the obligation
        recorded under the letter of intent, shall be carried as a commitment, pending
        execution of the definitive contract …

        C. Commitments cannot be carried past the fiscal year end. A miscellaneous
        obligation document must be recorded at fiscal year end.

The guidance in paragraph 080507C does not comply with 10 U.S.C. 2326. The
DoD FMR states that DoD Components will record a miscellaneous obligation at fiscal
year-end for the undefinitized part of the contract. However, the statute states that
11
  LMP showed a not-to-exceed price of $5,699,999.43 or $13,472.43 more than the letter contract price of
$5,686,527.00, which increased the obligation for the undefinitized part of the UCA from $2,900,128.77 to
$2,913,601.20.


                                                    11
contracting officers may not obligate more than 50 percent of the overall ceiling price
until they definitize contract terms, specifications, and price. Three of the four UCAs
were not definitized until the first and second quarters of FY 2008. The Contracting
Center definitized the fourth contract on September 29, 2007. However, Logistics
Readiness Center personnel erroneously included it as a duplicate obligation in the
year-end MOD.

In addition, paragraphs 080507A and B conflict with paragraph C guidance. Paragraph
080507A states that an obligation should be recorded in the amount stated as the
maximum liability under the letter contract. Paragraph 080507B states that the estimated
amount over and above the recorded obligation amounts should be carried as a
commitment, pending execution of a definitive contract. However, paragraph 080507C
states that a commitment cannot be carried past the fiscal year-end and a miscellaneous
obligation must be recorded at fiscal year-end. The guidance can be interpreted to mean
that a valid contractual obligation exists only at fiscal year-end.

The noncompliant and conflicting guidance resulted in inconsistent and inaccurate
reporting of obligations on the monthly and fiscal year-end AWCF financial reports. The
Office of the Under Secretary of Defense (Comptroller) should delete the DoD FMR
requirement to record a miscellaneous obligation at fiscal year-end for the undefinitized
amount of the UCA. In accordance with 10 U.S.C. 2326, the DoD FMR should require
DoD Components to obligate funding authority in the fiscal year in which the UCA is
definitized. In addition, CECOM should discontinue the current business practice of
obligating 100 percent of the value of UCAs at fiscal year-end.

Purchase Requisitions
CECOM recorded an invalid or duplicate obligation for the 10 purchase requisitions with
outstanding commitment balances of $3.6 million recorded in the LMP Financial
Accounting Module as of September 30, 2007. CECOM, following its normal business
practice, recorded a miscellaneous obligation for the outstanding commitment balances of
the purchase requisitions recorded in the Funds Management component of the LMP
Financial Accounting Module. CECOM personnel stated that they processed the
miscellaneous obligation to retain FY 2007 funding authority. The obligation of funds at
fiscal year-end on a MOD in the absence of an agreement between an agency and another
party in anticipation of specific, definite needs violates 31 U.S.C. 1501 and DoD FMR,
volume 3. One of the 10 open purchase requisitions we reviewed had an outstanding
commitment balance of $165,000 that was no longer valid. It was not valid because of a
previous error in attempting to correct the open purchase requisition. Although the LMP
Funds Management component showed an unobligated balance for the other nine
purchase requisitions, our review showed that obligations had already posted in the
Financial Accounting Module to the Undelivered Orders, Obligations Unpaid account
(general ledger account code 4801).

The PEO EIS and CECOM had identified, but had not yet formalized, a plan to correct an
LMP system problem affecting recorded commitment balances for purchase requisitions
when different units of measurement are used on the purchase requisition and purchase


                                            12
order. In recognition of the problem, the PEO EIS has developed a report that identifies
purchase requisitions and purchase orders with different units of measurement. The
July 2008 report identified 131 purchase requisitions and purchase orders with different
units of measurement. However, CECOM has not developed standard operating
procedures for using the report to monitor and manage the effects of the differences on
financial data.

Unit-of-measurement differences often occur on purchase requisitions and purchase
orders for repair and maintenance of inventory items. For example, 1 of the 10 purchase
requisitions prepared by the Logistics Readiness Center showed a quantity of 11 each, a
unit price of $64,127, and a total value of $705,397. However, the contract issued by the
Contracting Center stated a quantity of 1 lot for a total cost of $705,397 (the 1 lot was
intended to capture all 11 items requisitioned). The contract data posted to the LMP
Funds Management component as a quantity order of 1 each and a purchase order
obligation amount of $705,397. In addition, an obligation for $705,397 posted to the
Undelivered Orders, Obligations Unpaid account (general ledger account code 4801).
However, LMP reduced the commitment amount of the purchase requisition in the LMP
Funds Management component by only $64,127 (1 each for $64,127), and the purchase
requisition continued to show an open order quantity of 10 each, with an open
commitment balance of $641,270.

As a result of these transactions, both the general ledger and the LMP Funds
Management component showed an outstanding commitment balance of $641,270
($705,397 less $64,127) for the purchase requisition. They also showed that funds were
fully obligated for $705,397 on the purchase order. This overstated the amount of open
commitments and understated the allotted funds available on the monthly financial
reports. By including the outstanding commitment balance of $641,270 as part of the
year-end MODs, CECOM recorded a duplicate obligation. Of the 10 open purchase
requisitions that we reviewed, 9 had $3.4 million of duplicate obligations caused by
variances in the unit-of-measurement quantities, and one purchase requisition involved an
invalid commitment for $165,000 caused by an error in attempting to correct the purchase
order. Because the 10 purchase requisitions reviewed were duplicate or invalid
obligations and CECOM followed a consistent business practice when obligating
outstanding commitments for purchase requisitions, we concluded that many of the other
204 open purchase requisitions, valued at $10.2 million, were also likely to have invalid
or duplicate obligations.

The PEO EIS should formalize a plan to change LMP functionality to correctly process
contract and accounting data when different units of measurement are used on the
purchase requisition and the purchase order. CECOM should develop standard operating
procedures for using the report on unit-of-measurement differences and continually
monitor the effects these differences have on reported financial data. In addition,
CECOM should discontinue the practice of recording a MOD for the outstanding




                                           13
commitment balances of open purchase requisitions at fiscal year-end and should verify
that there is documentary evidence that a valid contract or purchase order exists before
recording a MOD.

Undocumented Obligation Transaction
CECOM personnel processed an invalid $7.7 million obligation transaction on
September 30, 2007. The transaction was not included as part of the two MODs we
reviewed. We identified this transaction when reviewing obligation reversals processed
after FY 2007 year-end close. Logistics Readiness Center personnel stated that they
processed the transaction to obligate funds for an open UCA, but later determined that
they had already finalized the UCA. Personnel explained that this problem occurred
because of time constraints at fiscal year-end and miscommunication among staff
regarding the contract status of the UCA. Logistics Readiness Center personnel
processed the obligation transaction for the estimated amount of the UCA without
preparing the MOD and the supporting documentation identifying a specific contract
action and dollar amount. On October 26, 2007, personnel reversed the obligation.
CECOM should develop written procedures requiring that estimated obligations be
supported by a DD Form 2406 and include the supporting documentation and evidence of
management review and approval.

Conclusion
CECOM improperly used MODs to record invalid or duplicate obligations, violating
31 U.S.C. 1501, 10 U.S.C. 2326, and the DoD FMR and therefore overstating the
year-end obligation balance on the FY 2007 ACWF Statement of Budgetary Resources
by at least $24.4 million. The Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer should revise DoD FMR, volume 3, chapter 8, to enforce
10 U.S.C. 2326 limitations on obligating funds for UCAs and to prevent the use of a
MOD to obligate the undefinitized amount of a UCA at fiscal year-end. To correctly
record contract and accounting data when there are different units of measurement on the
purchase requisition and the purchase order, the PEO EIS should formalize a plan to
change LMP functionality, and CECOM should develop procedures to monitor the
effects on financial data until the PEO EIS corrects LMP functionality. To ensure that
miscellaneous obligations are valid, CECOM should stop obligating the outstanding
commitment balances of open purchase requisitions at fiscal year end and develop
standard operating procedures for verifying, documenting, and approving year-end
MODs.


Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer revise DoD Financial Management Regulation, volume 3,
chapter 8. Specifically, delete the requirement that DoD Components record a
miscellaneous obligation at fiscal year-end for the undefinitized amount of an



                                           14
Undefinitized Contract Action, and require that DoD Components commit and
obligate the fiscal year budget authority in effect at the time an Undefinitized
Contract Action is definitized.

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The Acting Deputy Chief Financial Officer agreed and stated that the Office of the Under
Secretary of Defense (Comptroller) has revised DoD FMR, volume 3, chapter 8, and has
issued it for electronic coordination. The draft changes to the DoD FMR will delete the
requirement that DoD Components replace a recorded commitment with a miscellaneous
obligation at year-end. The draft changes also require that DoD Components commit and
obligate the fiscal year budget authority in effect at the time an Undefinitized Contract
Action is definitized. The target date for issuing the final changes to the DoD FMR was
April 30, 2009.

Our Response
The Acting Deputy Chief Financial Officer comments are responsive. No further
comments are required.

B.2. We recommend that the Army Program Executive Officer, Enterprise
Information Systems formalize a plan to change the Logistics Modernization
Program system functionality to correctly process contract and accounting data
when there are differences between units of measurement on the purchase
requisition and the purchase order.


Program Executive Officer, Enterprise Information Systems
Comments
The Army PEO EIS agreed and stated that the LMP Program Management Office has
performed an initial analysis of possible systemic changes (changes to system
functionality) to correctly process contract and accounting data when there are
differences between units of measurement on the purchase requisition and the purchase
order. Although system functionality changes would result in contract obligation data
posting correctly in LMP, the changes would likely result in incorrect posting of financial
and logistics data when the material receipt and invoice posted. The Army PEO EIS
stated that the best and most effective way to resolve the issue is to change business
processes for new contracts and require the Contracting Centers to use the same quantity
and unit-of-measurement in the contract as used on the initial purchase requisition.

The PEO EIS further stated that the LMP Program Management Office continues to
investigate the initial changes to system functionality and quantify the impact on financial
and logistical data of material receipts and invoices. The LMP Program Management
Office will communicate the results of its analysis to the Army business community by
April 24, 2009. The PEO EIS stated that if his office identifies system functional
changes to address the financial and logistical aspects of processing contract obligations,



                                            15
material receipts, and invoices with unit-of-measurement differences, incorporating these
changes into LMP would follow the established system development lifecycle. The
established development lifecycle includes prioritizing of the required work by
Headquarters, AMC, and scheduling the documentation, development, and testing phases
in the LMP Integrated Program Master Schedule.


Our Response
The Army PEO EIS comments are partially responsive. The LMP Program Management
Office indicated that the initial changes to system functionality (“systemic changes”)
would likely result in incorrect posting of financial and logistical data when subsequent
material receipts and invoices are processed. However, it continues to review system
solutions to the problem. The PEO EIS stated that the most effective way to resolve the
problem is to change business processes for new contracts and require the Contracting
Centers use the same quantity and unit of measurement on the contract as used on the
purchase requisition. However, the Army business community has stated that the PEO
EIS should change LMP functionality to process unit-of-measurement differences.

The PEO EIS and the Army business community need to agree on a course of action to
resolve the problem of incorrect posting of financial and logistical data caused by
differences between the units of measurement on the purchase requisition and the
purchase order. The July 2008 report developed by the LMP Program Management
Office for CECOM identified 131 purchase requisitions and purchase orders with
unit-of-measurement differences that caused a $17.4 million overstatement of open
commitments and a corresponding understatement of allotted funds available on the
monthly financial statements. As the LMP Program Management Office deploys the
system to the other AMC Life Cycle Management Commands, the adverse effect on
financial reporting could materially increase. In addition, it is a core financial system
requirement that a system must be able to automatically close commitment documents
and document lines upon issuance of an obligating document. The PEO EIS and the
Army business community (primarily AMC) need to agree on a definitive plan of action
to either change current contracting business practices or change LMP to correctly
process accounting and logistics data when there are differences between units of
measurement on the purchase requisition and purchase order. We request that the Army
PEO EIS provide comments on a definitive plan of action in response to the final report.

B.3. We recommend that the Commander, Communications-Electronics Life Cycle
Management Command develop standard operating procedures for processing
year-end miscellaneous obligations and managing unit-of-measurement differences.
Specifically, require that the Logistics Readiness Center:

       a. Discontinue the current business practice of obligating the undefinitized
part of Undefinitized Contract Actions at the end of the fiscal year.




                                            16
       b. At fiscal year-end, review all open purchase requisitions and verify that
documentary evidence supports the existence of a valid obligation before recording
a miscellaneous obligation document.

      c. Use DD Form 2406, “Miscellaneous Obligation Document,” to document
support of all estimated obligations and for management review and approval.

        d. Use the report on unit-of-measurement differences to continually monitor
the effects on reported financial data.


Communications-Electronics Life Cycle Management Command
Comments
       a. The Commander, CECOM agreed and stated that personnel no longer obligate
the undefinitized part of UCAs at fiscal year-end.

        b. The Commander, CECOM agreed and stated that personnel conduct periodic
reviews of open commitments throughout the year and review open commitments on a
daily basis at fiscal year-end. CECOM will close out open commitments for purchase
requisitions that personnel cannot obligate by September 30.

        c. The Commander, CECOM agreed and stated that the year-end process requires
the use of the DD Form 2406 to record miscellaneous obligations. While personnel did
not fully document the procedures until FY 2008, CECOM personnel did use the DD
Form 2406 to support the FY 2007 year-end miscellaneous obligation.

         d. The Commander, CECOM agreed and stated that CECOM uses an LMP query
to track and monitor unit-of-measurement differences. In response to Recommendation
B.3.b., the Commander also stated that closing out some of the open commitments that
relate to unit-of-measurement differences can negatively impact the item manager’s
ability to properly manage secondary items as invalid quantities of due-ins would remain
on the LMP records. CECOM personnel will use the report to clean up these invalid
due-ins.

Our Response
The Commander, CECOM comments are responsive and meet the intent of the
recommendations. No further comments are required.




                                           17
Appendix A. Scope and Methodology
We conducted this audit from May 2007 through March 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We evaluated the effectiveness of controls over the recording and reporting of contract
obligations in LMP. We reviewed the initiatives taken by the PEO EIS and CECOM to
improve LMP system processes and internal controls and analyzed the percentage of
contract lines rejected during the PADDS-to-LMP interface. We requested a data file of
all open contract line items recorded in PADDS. We also obtained a data file of all active
purchase order line items citing CECOM funds recorded in LMP since implementation in
July 2003. The Data Mining Directorate, Office of the Deputy Inspector General for
Auditing, used Audit Command Language software to match contract obligations
recorded in PADDS to the purchase order obligations recorded in LMP. Specifically, the
Data Mining Directorate used the contract line item number to match the obligations
recorded in PADDS from May 1, 2005, through June 30, 2007, to the purchase order
obligations recorded in the LMP Financial Accounting Module from May 1, 2005,
through August 17, 2007. We excluded from our data analysis contract obligation data
recorded in PADDS and LMP before May 1, 2005. Instead, we focused the review on
obligation data processed since May 1, 2005, when the PEO EIS rewrote the
PADDS-to-LMP interface, increased the frequency of PADDS file transfers, and
developed additional monitoring reports. We judgmentally sampled 78 of the 404
contract line item numbers in PADDS that did not have a matching purchase order
contract line item number in LMP. We also reviewed the 40 matching contract line item
numbers with different dollar amounts in PADDS and LMP. With the assistance of
CECOM personnel, we analyzed the mismatches to identify the reasons for differences in
the recorded obligations. We also did a reverse data match, comparing purchase order
obligations recorded in LMP to the contract obligations recorded in PADDS, and
reviewed the 37 identified mismatches. In addition, we reviewed the data migration
plans that AMC and the PEO EIS are using to validate contract data accuracy before
fielding LMP at the Aviation and Missile Life Cycle Management Command in
March 2009.

We reviewed CECOM procedures and controls over the use of MODs at fiscal year-end.
We reviewed DoD FMR, volume 3, guidance on recording commitments and obligations
for consistency with requirements set forth in 31 U.S.C. 1501 and 10 U.S.C. 2326. We
interviewed CECOM personnel to determine the process for preparing and processing the
FY 2007 year-end MODs. From the two MODs processed by CECOM at fiscal year-end,
we selected a judgmental sample of 4 UCAs valued at $13.1 million and 10 purchase
requisitions valued at $3.6 million to determine whether a valid obligation existed as of
September 30, 2007. In addition, we reviewed other obligation reversals processed after


                                           18
FY 2007 year-end closing to determine whether a valid obligation existed as of
September 30, 2007. In addition, we coordinated with the PEO EIS to determine plans
for changing LMP functionality to correctly process contract and accounting data when
different units of measurement are used on the purchase requisition and the purchase
order.

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used contract
and accounting data from PADDS and LMP. With the assistance of the Data Mining
Directorate, we performed limited tests of the reliability and accuracy of the data
elements recorded in PADDS and LMP. In order to ensure the reliability and accuracy of
PADDS data, we verified that the contract data in PADDS matched the source contract
documents stored in the Electronic Document Access system. With assistance from
CECOM personnel, we analyzed the discrepancies. Our analysis identified an
acknowledged LMP system problem affecting the recorded commitment balance for a
purchase requisition when there is a unit-of-measurement discrepancy between the
purchase requisition and purchase order.

Use of Technical Assistance
A senior auditor from the Data Mining Directorate, Office of the Deputy Inspector
General for Auditing, assisted on this audit by importing transaction data from LMP and
PADDS into Audit Command Language software and executing data comparisons to
identify missing or inaccurate contract obligations recorded in the two systems.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and Army Audit Agency (AAA) have issued six
reports discussing LMP. Unrestricted GAO reports can be accessed over the Internet at
www.gao.gov. Unrestricted DoD IG reports can be accessed at
www.dodig.mil/audit/reports. AAA reports are restricted to military domains and GAO.
They can be accessed at www.aaa.army.mil/reports.htm.

GAO
GAO Report No. 05-441, “Army Depot Maintenance – Ineffective Oversight of Depot
Maintenance Operations and System Implementation Efforts,” June 2005

GAO Report No. 04-615, “DoD Business Systems Modernization – Billions Continue to
be Invested with Inadequate Management Oversight and Accountability,” May 2004

DoD IG
DoD IG Report No. D-2007-065, “Controls Over the Prevalidation of DoD Commercial
Payments,” March 2, 2007




                                           19
AAA
AAA Report No. A-2007-205-FFM, “Logistics Modernization Program System Federal
Financial Management Improvement Act of 1996 Compliance – First Deployment
Functionality,” September 7, 2007

AAA Report No. A-2007-0163-FFM, “FY 03 – FY 05 Obligations Recorded in the
Logistics Modernization Program,” July 27, 2007

AAA Report No. A-2007-0154-ALR, “Follow up Audit of Aged Accounts – U.S. Army
Communications-Electronics Life Cycle Management Command,” July 2, 2007




                                      20
Appendix B. Glossary
Commitment. A commitment is an administrative reservation of funds based upon firm
purchase requisitions, orders, directives, and equivalent instruments. A commitment
transaction ensures that funds are available before incurring an obligation.

Definitized Contract. A definitized contract is a contract action for which the
Government and contractor have agreed to the final contract terms, specifications, and
price.

Contract Line Item Number. A contract line item number identifies an item of supply
or services on a contract, to include the item description, quantity, unit price, and total
price.

Enterprise Resource Planning System. An enterprise resource planning system records
every business transaction that takes place within the business process and provides real-time
updates to the system databases and all connected systems to reflect each transaction. LMP is
a Systems Application and Products (SAP®)-based enterprise system.

Obligation. An obligation is a legal reservation of funds based on the dollar value of
orders placed, contracts awarded, services received, and similar transactions during an
accounting period that will require payment during the same or future period.

Purchase Order. A purchase order is an LMP-generated document containing the
contract data elements received from PADDS. One contract data element is the
obligation amount. In LMP, “purchase order” is synonymous with “contract.”

Purchase Requisition. The purchase requisition is a request for the procurement of a
specific quantity of material or services from external or internal supply sources.
Logistics Readiness Center personnel prepare the purchase requisition, which creates a
commitment in the LMP Financial Accounting Module before the purchase requisition
passes to PADDS, where the Acquisition Directorate awards the contract for the
requested material or services.

Undefinitized Contract Action. An undefinitized contract action is a contract action for
which the contract terms, specifications, or price are not agreed upon before the
contractor starts the work required by the contract.




                                              21
Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer Comments




                   Click to add JPEG file




                                  22
Click to add JPEG file




               23
Army Materiel Command Comments




                 Click to add JPEG file




                                24
Click to add JPEG file




               25
Communications-Electronics Life Cycle Management
Command Comments




                  Click to add JPEG




                               26
Click to add JPEG file




               27
Click to add JPEG file




               28
Click to add JPEG file




               29
Program Executive Officer, Enterprise Information
Systems Comments




                          o add JPEG file




                                  30
Click to add JPEG file




               31
Click to add JPEG file




               32
